                 U.S. ELECTION ASSISTANCE
                        COMMISSION
                 OFFICE OF INSPECTOR GENERAL




                      FINAL AUDIT REPORT:

                  ADMINISTRATION OF PAYMENTS
                RECEIVED UNDER THE HELP AMERICA
                VOTE ACT BY THE TEXAS SECRETARY
                            OF STATE




Report No.
E-HP-TX-06-06
October 2006
                           U.S. ELECTION ASSISTANCE COMMISSION
                                  OFFICE OF INSPECTOR GENERAL
                                  1225 New York Ave. NW - Suite 1100
                                         Washington, DC 20005



                                                                           October 18, 2006

Memorandum

To:          Thomas Wilkey
             Executive Director

From:        Curtis Crider
             Inspector General

Subject:     Final Audit Report on the Administration of Payments Received Under the
             Help America Vote Act by the Texas Secretary of State (Assignment No. E-
             HP-TX-06-06)

        This report presents the results of the subject audit. The objectives of the audit
were to determine whether Texas (1) expended Help America Vote Act (HAVA)
payments in accordance with the Act and related administrative requirements and (2)
complied with the HAVA requirements for replacing punch card or lever voting
machines, for appropriating a 5 percent match for requirements payments, for
establishing an election fund, and for maintaining state expenditures for elections at a
level not less than expended in fiscal year 2000.

        The report concluded that Texas generally complied with requirements and
identified two areas needing management attention, as follows:

      9 Texas financed indirect costs with HAVA funds before the Election Assistance
        Commission (EAC) approved the State’s indirect cost rate. This resulted in the
        improper use of HAVA funds of $180,609 for indirect costs which we classified
        as questioned costs.

      9 Texas needed to take additional steps to ensure that income from county leasing
        of HAVA-financed voting equipment is accurately computed, reported and
        properly used.

         In an October 12, 2006 response to the draft report (Appendix 3), Texas stated
that it had completed appropriate action to resolve the indirect costs finding and was
waiting for EAC approval of its measures. Regarding program income, Texas requested
approval from EAC to offset the cost of generating gross program income to determine
net program income.
        Please provide us with your written response to the recommendations included in
this report by December 22, 2006. Your response should contain information on actions
taken or planned, including target dates and titles of EAC officials responsible for
implementing the recommendations

       Section 5(a) of the Inspector General Act (5 U.S.C. § App.1) requires the Office
of Inspector General to list this report in its semiannual report to Congress.

       If you have any questions regarding this report, please call me at (202) 566-3125.
               BACKGROUND

               The Help America Vote Act of 2002 (HAVA or the Act) created the
HELP AMERICA   U.S. Election Assistance Commission (EAC or Commission) to assist
VOTE ACT       states and insular areas with the administration of Federal elections and
               to provide funds to states to help implement these improvements.
               HAVA authorizes payments to states under Titles I and II, as follows:

                   9 Title I, Section 101 payments are for activities such as
                     complying with Title III of HAVA for uniform and
                     nondiscriminatory election technology and administration
                     requirements, improving the administration of elections for
                     Federal office, educating voters, training election officials and
                     poll workers, and developing a state plan for requirements
                     payments.

                   9 Title I, Section 102 payments are available only for the
                     replacement of punchcard and lever action voting systems.

                   9 Title II, Section 251 requirements payments are for complying
                     with Title III requirements for voting system equipment; and
                     for addressing provisional voting, voting information, statewide
                     voter registration lists, and voters who register by mail.

               Title II also requires that states must:

                   9 Have appropriated funds “equal to 5 percent of the total amount
                     to be spent for such activities [activities for which requirements
                     payments are made].” (Section 253(b)(5)).

                   9 “Maintain the expenditures of the State for activities funded by
                     the [requirements] payment at a level that is not less than the
                     level of such expenditures maintained by the State for the fiscal
                     year ending prior to November 2000.” (Section 254 (a)(7)).

                   9 Establish an election fund for amounts appropriated by the state
                     “for carrying out the activities for which the requirements
                     payment is made,” for the Federal requirements payments
                     received, for “such other amounts as may be appropriated under
                     law,” and for “interest earned on deposits of the fund.” (Section
                     254 (b)(1)).




                                       1
                          HAVA funds received and expended by Texas are as follows:
FUNDING FOR
TEXAS                         TYPE OF              AMOUNT                     OUTLAYS
                              PAYMENT             RECEIVED               AMOUNT       AS OF1

                              101                   $17,206,595             $841,251        12/31/05
                              102                     6,269,521             4,219,039       12/31/05
                              251                   160,691,949            24,852,392       09/30/05

                              Totals               $184,168,065          $29,912,682


                          Within the Office of the Texas Secretary of State, HAVA programs are
FINANCIAL                 administered by the Elections Division and the Administrative
MANAGEMENT                Services Division. To account for the HAVA payments, the Act
REQUIREMENTS              requires recipients to maintain records that are consistent with sound
                          accounting principles, that fully disclose the amount and disposition of
                          the payments, that identify project costs financed with the payments
                          and with other sources, and that will facilitate an effective audit.

                          In addition, the Commission notified states of other management
                          requirements. Specifically, that states must:

                              9 Comply with the Uniform Administrative Requirements for
                                Grants and Cooperative Agreements with State and Local
                                Governments (also known as the “Common Rule”).

                              9 Expend payments in accordance with cost principles for
                                establishing the allowability or unallowability of certain items
                                of cost for federal participation issued by the Office of
                                Management and Budget (OMB) in Circular A-87.

                              9 Submit annual financial reports on the use of Title I and Title II
                                payments.

                          The objectives of our audit were to determine whether Texas (1)
OBJECTIVE                 expended HAVA payments in accordance with the Act and related
                          administrative requirements and (2) complied with the HAVA
                          requirements for replacing punch card or lever voting machines, for
                          establishing an election fund, for appropriating a 5 percent match for
                          requirements payments, and for maintaining state expenditures for
                          elections at a level not less than expended in fiscal year 2000.
                          Specifically, we audited expenditures from May 1, 2003 through

1
 EAC requires states to submit annual reports on the expenditure of HAVA Sections 101, 102, and 251
funds. For Sections 101 and 102, reports are due on February 28 for the activities of the previous calendar
year. For Section 251, reports are due by March 30 for the activities of the previous fiscal year ending on
September 30.



                                                     2
                   December 31, 2005, and reviewed controls to assess their adequacy
                   over the expenditure of HAVA funds. We also evaluated compliance
                   with certain HAVA requirements for the following activities:

                      9 Accumulating financial information reported to EAC on the
                        Financial Status Reports (Standard Forms number 269).
                      9 Accounting for property.
                      9 Purchasing goods and services.
                      9 Accounting for salaries.
                      9 Charging indirect costs.
                      9 Spending by counties.

                   We also determined whether Texas had complied with the
                   requirements in HAVA applicable to Section 251 requirements
                   payments for:

                      9 Establishing and maintaining the election fund.
                      9 Appropriating funds equal to five percent of the amount
                        necessary for carrying out activities financed with Section 251
                        requirements payments.
                      9 Sustaining the State’s level of expenditures for elections.




                   RESULTS OF AUDIT

                   We concluded that Texas (1) generally administered HAVA funds in
SUMMARY            accordance with requirements and (2) properly established the State
                   election fund, appropriated and deposited into the election fund its
                   matching monies, and sustained the appropriate level of state
                   expenditures for elections. Also, our audit identified two areas
                   regarding the management of HAVA funds that need further attention.
                   First, Texas financed indirect costs with HAVA funds before EAC
                   approved the State’s indirect cost rate. This resulted in the improper
                   use of HAVA funds of $180,609 for indirect costs which we classified
                   as questioned costs. Second, we found that the State needs to take
                   additional steps to ensure that income from county leasing of HAVA-
                   financed voting equipment is accurately computed, reported and
                   properly used.

                   Texas reported on the Financial Status Report (SF-269) for HAVA
INDIRECT COSTS Section 101 funds for the period ending December 31, 2005, the
                   expenditure of $180,609 for indirect costs. The SF-269 indicated that
                   the indirect costs were based on a provisional rate of 49.768 percent
                   applied to a base of $362,901. Although Texas had submitted its



                                         3
                         indirect cost rate proposal to EAC, EAC had not yet approved the rate.
                         Federal cost principles contained in OMB Circular A-87 require an
                         indirect cost rate to be approved by the cognizant Federal agency
                         (EAC) before the rate is used.2 As such, we questioned the use of
                         HAVA funds for indirect costs of $180,609.
                         Notwithstanding the lack of an approved indirect cost rate, we noted
                         that Texas incorrectly calculated indirect costs. Specifically, Texas
                         applied the proposed rate of 49.768 percent to total direct costs less
                         payments to counties resulting in the $180,609 charge for indirect
                         costs. However, the Texas indirect cost proposal specifies that the rate
                         will be applied to only personal services costs, which would result in a
                         lesser charge for indirect costs.
                         Texas made adjustments to its reported indirect costs after we informed
                         them of our finding. On July 6, 2006, Texas submitted amended SF-
                         269s to EAC in which it reduced its indirect charge from $180,609 to
                         $62,223. Texas based its reduction on the application of its current
                         pending rate of 48.548 percent applicable to personal services of
                         $128,168. This calculation reflects the proper application of the rate.
                         Therefore, if EAC approves an indirect cost rate of 48.548 percent for
                         fiscal years 2004 and 2005, Texas has made the proper adjustments
                         and no further action is necessary regarding this matter.
                         In response to this finding, Texas stated that it had:
                                  received the EAC Cognizant Agency Indirect Cost
                                  Negotiation Agreement Filing Ref: TX-SFY05-06 dated
                                  September 19, 2006 approving the indirect cost rate of
                                  48.548 percent. As noted in the audit report, the SOS
                                  has already made the accounting adjustment to reflect
                                  the 48.548 percent rate. Accordingly, the SOS requests
                                  that the EAC conclude that no further action is
                                  necessary.
                         Recommendation:
                              1. We recommend that EAC resolve the questioned costs of
                                 $180,609.


                          Program income has not been properly computed, reported and (if
PROGRAM                   applicable) used to support HAVA-related activities. According to the
INCOME                    Uniform Administrative Requirements for Grants and Cooperative
                          Agreements with State and Local Governments (41 CFR 105-71.125),
                          program income is defined as gross income received from a grant-
                          supported activity during the grant period and includes items such as

2
 OMB Circular A-87, Attachment E, Part E.1 requires indirect cost rates to be reviewed, negotiated and
approved by the cognizant Federal agency before it will be accepted and used by all Federal agencies.



                                                    4
fees from the use or rental of real or personal property acquired with
grant funds. In the case of the HAVA program, the grant-supported
activity is the acquisition of voting machines. And, according to a
December 28, 2005 EAC letter to the Texas Secretary of State, the
grant period started on the date HAVA funds were disbursed to the
State (May 1, 2003 for 102 funds and June 15, 2004 for 251 funds)
and will end on the date that the State and/or a political subdivision of
the State expends all the funds received (which has yet to occur).
The Uniform Administrative Requirements also stipulate, in part, that
the costs incident to the generation of program income may be
deducted from gross income to determine program income, if
authorized by Federal regulations or the grant agreement.
Computation: Three of the four counties we visited during our audit
collected revenue that included program income. For example, Texas
granted Harris County about $21 million as reimbursement for the
purchase of HAVA-compliant voting equipment. Harris County has
subsequently entered into lease agreements with local governments,
such as the City of Houston and county school districts, to support
elections. The lease agreements included fees for election judges,
supervisors, clerks, training booklets, postage, technical support,
polling places, printing and supplies, rental of voting equipment, and
several similar items. Harris County lease revenues beginning in fiscal
year 2004 are as follows:


                    Fiscal Year            Amount
                    2003 - 2004            $4,423,593
                    2004 - 2005             3,924,776
                    2005 - 2006             2,538,523
                    2006 - 2007               178,095

                       Total             $11,064,987

To compute program income, an analysis must be performed that:
     9 Determines the specific grant periods for 102- and 251-
       funded voting equipment included in the leases. (The
       periods will differ because the funds were received by Texas
       on different dates.)

     9 Determines gross revenues applicable to only the use of
       HAVA-funded equipment from total lease revenue.

     9 Identifies the costs of generating the gross program income



                      5
         applicable to the HAVA-funded activities.

     9 Reduces, subject to EAC approval, gross program income by
       the applicable costs.

Reporting: Both the federal Standard Form 269 and the Texas online
grant application, approval, and payment system provide for reporting
program income. However, none of the counties we visited reported
any program income. Texas should ensure that its counties accurately
report program income for subsequent reporting to EAC.
Use: In its December 28, 2005 letter to Texas, EAC said that counties
which generate program income should dedicate the income to uses
permitted under HAVA, Section 251. In this regard, we noted that
Harris County deposited the revenue from its support of local
elections into its general fund. Therefore, counties with program
income should establish a separate fund that reserves the income for
uses only as authorized under HAVA, Section 251.
Although Texas incorported into its grant agreements the Uniform
Administrative Requirements and also had a separate section in the
agreements on program income, its guidance was prepared before
EAC defined the grant period. Thus, state guidance did not identify
the parameters for determining program income.
Recommendations:

We recommend that EAC ensure that the Texas Office of the
Secretary of State:

   2. Provides guidance to counties on computing, reporting, and
      using program income.

   3. Ensures that counties follow the guidance for program income.




                     6
                                                  APPENDIX 1

SCOPE AND METHODOLOGY

To accomplish our objective, we reviewed:

9 The prior single audit report and other reviews related to the
  Secretary of State’s financial management systems and the HAVA
  program for the last 2 years.
9 Policies, procedures and regulations for the Texas Secretary of
  State’s management and accounting systems as they relate to the
  administration of HAVA programs.
9 Inventory lists of equipment purchased with HAVA funds.
9 Major purchases.
9 Supporting documents maintained in the accounting system for
  payments made with HAVA funds.
9 Support for reimbursements to counties.
9 Certain Texas laws that impacted the election fund.
9 Appropriations and expenditure reports for State funds used to
  maintain the level of expenses for elections at least equal to the
  amount expended in fiscal year 2000 and to meet the five percent
  matching requirement for section 251 requirements payments.
9 Information regarding source/supporting documents kept for
  maintenance of effort and matching contributions.
We also interviewed appropriate Division employees about the
organization and operation of the HAVA program.

We conducted our review in accordance with Government Auditing
Standards issued by the Comptroller General of the United States. As
such, we included tests and procedures as considered necessary under
the circumstances to evaluate the Division’s controls over the
administration of HAVA payments. Because of inherent limitations, a
study and evaluation made for the limited purposes of our review
would not necessarily disclose all weaknesses in administering HAVA
payments.




                      7
                                   APPENDIX 2

MONETARY IMPACT

                      Questioned
    Description         Costs

Indirect Costs          $180,609




                  8
    APPENDIX 3
    Page 1of 5




9
     APPENDIX 3
     Page 2 of 5




10
     APPENDIX 3
     Page 3 of 5




11
     APPENDIX 3
     Page 4 of 5




12
     APPENDIX 3
     Page 5 of 5




13
                      The OIG audit mission is to provide timely, high-quality
                      professional products and services that are useful to OIG’s clients.
                      OIG seeks to provide value through its work, which is designed to
                      enhance the economy, efficiency, and effectiveness in EAC
OIG’s Mission         operations so they work better and cost less in the context of
                      today's declining resources. OIG also seeks to detect and prevent
                      fraud, waste, abuse, and mismanagement in these programs and
                      operations. Products and services include traditional financial and
                      performance audits, contract and grant audits, information systems
                      audits, and evaluations.


                      Copies of OIG reports can be requested by e-mail.
                      (eacoig@eac.gov).

                      Mail orders should be sent to:
Obtaining
Copies of             U.S. Election Assistance Commission
                      Office of Inspector General
OIG Reports
                      1225 New York Ave. NW - Suite 1100
                      Washington, DC 20005
                      To order by phone: Voice: (202) 566-3100
                                          Fax: (202) 566-3127


To Report Fraud,      By Mail: U.S. Election Assistance Commission
Waste and Abuse                Office of Inspector General
Involving the U.S.             1225 New York Ave. NW - Suite 1100
Election Assistance            Washington, DC 20005
Commission or Help
                      E-mail:   eacoig@eac.gov
America Vote Act
Funds                 OIG Hotline: 866-552-0004 (toll free)

                      FAX: 202-566-0957
